                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

    Case Number: A03020009
                                                                                      I          Page 1 of 1




             An allegation of data falsification' was received. The subject of the allegation worked for a
             laboratory director2 who received NSF support for the published work. Assessment of the
             information received showed substance to the allegation, and first an inquiry, and then an
             investigation was referred to the Institute where the subject was employed. On receipt of the
             investigation report fiom the Institute, we determined the Institute's investigation to be
             incomplete, and not in compliance with their own procedures. We therefore completed our own
             investigation. We examined the original source documents and data files submitted for
             publication, and solicited additional statements fiom the subject.

             Multiple instances of data fabrication and falsification were established through the subject's
             admissions and supported through direct examination of the data. We established that the
             falsification and fabrication were knowing and purposeful, with a substantial impact on the
             scientific record, because eventually the entire publication in which the data appeared was
I            withdrawn.

             NSF has debarred the subject for two years.

             Accordingly, this case is closed.




              '   Redacted.
                  Redacted.



    NSF OIG Form 2 (1 1/02)
q. :                                               .        .                                                      . .'
.


    .
        .

            ..
                 .+
                          .


                          .
                              .

                                        ,.
                                              .
                                                       1,
                                                       y
                                                            '
                                                                                                              .,           j'                        .   .    . .
                                                                                                                                                                             9   ..           .. .
            .
                 a+
                              . .
                                                                                                                            NATIONALSCIENCE FOUNDATION                                .   .

ib                    '       .     :                                                                                                4201 WILSON BOULEVARD
             i:                                                 .. .
                                                                                         .   .                                  '   ARLINGTON,VIRGINIA 22230        ..   .   .




                                                   'OFFICE OF THE                        .
                                                                                                                                                             MAY I,3 X6
                                                                                     ,

                                                  DEPUTf DIRECTOR                            . , ..       .            .
                                                                ..     .   . .   .                    .            .




                                             On March 4,2005, the National Science Foundation ('WSF') sent you a Notice of Proposed
                                             Debarment in which NSF proposed to debar you h r n directly or indirectly obtaining the benefits
                                             of Federal grants for a period of two years. The Notice sets forth in detail the circumstances
                                             giving rise to NSF9sdecision to propose your debarment. Specifically, NSF indicated in the
                                             Notice that the proposed debarment is based upon your knowing falsification and fabrication of
                                             published data for research fimded, in part, by NSF. In that Notice, NSF provided you with thirty
                                             days to respond to the proposed debarment.

                                             Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
                                             debarred until March 4,2007. Debarment precludes you £+omreceiving Federal financial and
                                             non-financial assistance and benefits under non-procurement Federal programs and activities .
                                             unless an agency head or authorized designee makes a determination to grant an exception in
                                             accordance with 45 CFR Section 620.2 15. Non-procurement transactions include grants,
                                             cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
                                             subsidies, insurance, payments for specified use, and donation agreements.

                                             In addition, you are prohibited fkom receiving Federal contracts or approved subcontracts under
                                             the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
                                             debarment. 45 CFR Section 620.1lqc). During the debarment period, you may not have
                                             supervisory responsibility, primary management, substantive control over, or critical influence
                                             on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
                                             Federal Government.
              ..                                                                                                                                                                .                    .       . . .
                                                                                                                                                                                                                          .       .           .

:'      , .   Ifyou hive anyqueStions regardingthe foregoing, please contact             l d , ~ s s i s $ n t . ~. . e. .n. .~. .'
          .
                                                                                                                                                                                                                                                                  .
              Couns61, National Science Foun.dation, Office of the General Counsel, 4201  ~ilson~6ulevard,
                                                                                                                                                                                                                                                      . ..

              .                                                             . .     . .            . . . . . . .       . . . . . . . . .                                                                                                                              ..
                                                                                                                                                                                                                                                  .
              Room:l265,Arlington, Virginia, 22230.
                                                                                                                                                                                                                      :
                                                                                                        .,                             .                                                ..
                                                                                                                                                                                                              . _ %
                                                                                                                                                                                                                                      .
. ...
                                                                                                                                                                                                             . . .
                                                                                                    . .
                                                                                                                                   .       .           .        a       ,           .
                                                                                         .   .                                 . :                         .
                                                                                                                                                                .           .
                                                                                                                                                                                    .                    .            .           .                    .              .

                                             .   .                                                                                             .           .                                                                                           ...
                                                                                                                                                                                                                                                                 ....
                                                                                                                                               . . .
                                                                                                                               .               .                                                                                                            .:
                                                                                                                                                                                                                      .       .
                                                                                                                                                   .                .
                                                                                                                                                                                                                                                           . ..       .
                                                                                                                                                                                                                                          .                 .
                                                                                                                                                                                .,           . .
                                                                             Sinkerely,
                                                                                                                                        . .                    ..
                   .   .
                                                                                                             .   .
                                                                                                                               .
                                                                                                                                                                ,       .. . .
                                                                                                                                                                                    .    .
                                                                                                                          . . .. . . . . . . . . . .
                                                                                                 .   .                                                                                                   .    .


                                                                                                                                   .       .                                                                  .. .    ,

                                                 .   .                                                                         .           .               .

                                                                             ~6sephBordogna                                                                                              .   .

                                                                             Deputy Director             ,
                                                                                                                                               ,           .            :


                                                                                                                                           ..
                                                                                                                                                                                                                                                            .         .
                                                         .   .
                                                                                                                 ..   ,
                                                                                                                          .                                - :..
                                                                                                                                                                                         .   .           .

                                                                                                                               . . .
                                                                                 .   .                                                                                                  .        .
                                                                         .   .                                                     .       : .                      ..
                                                                                                                                       . .
          Office of Inspector General




                          Confidential
                      lnvestlgatlon Keport
                   'Case Number A03020009

                          2 September 2004


CONFIDENTIAL
NSF OIG FORM 228 (1/03)
                                                       Summary

        The Office of Inspector General (OIG) concludes that the subject1 knowingly falsified and
        fabricated published data for research supported in part by the National Science
        ~oundation.~  The subject's institution3conducted an investigation that concluded that the
        subject committed research misconduct. After completing our own investigation, we also
        conclude that the subject committed research misconduct.

        Because the subject's employment with the institution was terminated as a consequence of
        his actions, the institution took no fiuther action against him. Accordingly, to protect
        Federal interests, we recommend that NSF take the following actions as a final disposition
        in this case:

                NSF should issue a letter of reprimand informing the subject that NSF has made a
                finding of research misconduct against him.

                NSF should debar the subject fiom participation in Federal programs for a period of
                two years fiom the date of an NSF finding of research misconduct.

                                                      Background

        We received an allegation4that some of the supplemental data associated with a published

        although the subject was supported on an NIH fellowship.BIn our initial inquiry into the
        paper536were falsified andfor fabricated. The published pa er acknowledges NSF support,7
>
    I
        allegation, we learned that the subject's institution had initiated an inquiry into the
        allegation.

                                                 Institution's Inquiry

        We contacted the Institute to learn about its inquj.. In response, the Institute sent a letter
        to our office stating that its inquiry was complete, and that an investigation on its part was
        not necessary because the subject had already admitted acts of falsification and fabrication.




          We obtained the supplemental data available electronically with the published paper directly fiom the




        inquiry and investigation
We explained NSFYsresearch misconduct regulation and procedures, and the President of
the Institute accepted referral of an inquiry.9

The President of the Institute completed the Institute's inquiry.10 The inquiry report states
that the subject verbally admitted acts of data falsification and fabrication in a meeting
with the President on January 24,2003, and then within a letter fiom the subject to the
President dated January 25,2003. The inquiry report reveals that the President of the
Institute notified the subject on February 5,2003, that his employment at the Institute
would terminate March 15,2003. We concluded that the Institute inquiry established
substance to the allegation of falsification and fabrication, and concluded that an

               ''
investigation into this matter was warranted. The Institute accepted a referral of the
investigation.

                                   The Institute's Investigation

The Institute's April 30,2003, investigation report was conveyed to NSF OIG with a cover
letter fiom the President of the Institute on May 2, 2003.12 The investigation report states
that the committee met with the subject, examined statements provided by the subject to
the President of the Institute, and examined the supplementary data in which the
fabrication and falsification allegedly occurred. The report states "Our findings confirm
that [the subject] did include fraudulent data in a scientific paper published in 2003."13
'We further find that . .. [the subject's] . . .actions of fabrication and fiaud . . .do
represent a significant departure fiom the standards of scholarship both for research and for
publication in his field of science, and do constitute acts of research misconduct as defined
by NSF."'~ The investigation committee concluded that the subject's actions were an
isolated event. The investigation committee report did not address the issue of the
subject's intent in his fabrication and falsification of data

The Institute investigation committee recommended the following actions:15

         the Institute should continue to monitor the revision of the published paper and the
         supplemental data sets, and provide a statement of revision to the journal, and
         revised data should be reviewed by an external evaluator before resubmission to the
   $',
   6
         journal.                                                  .r.
                                                                                                b
                     committee recommended no specific actioh regarding the subject. As         '   .
                    subject's employment at the Ia$ftute'-was terminated March 15,2003.




   A referral of inquiry letter from NSF OIG was sent to the Institute March 13,2003 (Tab 3).
       F OIG received the report of inquiry fiom the Institute on March 17,2003 (Tab 4).        "
                                                                  a
              of investigation letter was sent to the Institutionon March 28,2003 (Tab 5).
      e Institute investigation report                                                          $
                                                                                                .
l3 Tab 6, page 2. The publication o                               identified by reference.
l4 Tab 6, page 2, continuing onto page 3.
l5 Tab 6, page 4.
                OIG's Assessment of the Institution's Investigation Report

NSF's misconduct regulation states "After receiving a report from an external investigation
by an awardee institution or another Federal agency, OIG will assess the accuracy and
completeness of the report and whether the investigating entity followed reasonable
procedures. It will either recommend adoption of the fmdings in whole or in part or,
normally within 30 days, initiate a new investigation."16

We reviewed the report of the Institute investigation committee. We concluded it was
perfimctory in several aspects. Although the report states that the committee interviewed
the subject, the investigation report contains neither a summary nor a transcript of that
interview." The investigation report refers to the document "Admission of misconduct
while being funded by Federal Grants"18 prepared by the subject to describe his actions
(including it as Attachment 1 in its investigation report), but did not assess either a
secondlgor a third2' document prepared by the subject and included in the Institute's own
inquiry report. The committee report states: "We have reviewed the statements and
research data given in Attachment 1, and confirm their ~alidity."~'However, no research
data appear in Attachment 122of the committee report, nor does the committee report
provide any other reference to the allegedly falsified or fabricated data.

Finally, we note that Institute policy ("Allegations of Misconduct in Science") states
specifically that "The President will make a copy of the final report of the Investigating
Committee available to the individual accused of misconduct . . ." and "The individual
accused of misconduct will have the right to respond to the findings and recommendations
made by the Investigation ~omrnittee."~~    Neither the Institute investigation report, nor the
accompanying cover letter from the President, suggests that the subject was given a copy
of the report, or any opportunity to respond.

For these reasons, we conclude that the Institute's investigation report is incomplete, and
that the Institute failed to follow reasonable procedures in the completion of its
investigation. Accordingly, we concluded that we could not accept the report of the
Institute's investigation committee in lieu of conducting our own investigation.



l6 45 C.F.R §689.9(a) (2002).
"  We specifically requested such summaries and transcripts in the letter through which our investigation
was referred to the Institute. We also requested copies of any data alleged to have been falsified or
fabricated.
l8 The "Admission of misconduct while beiig funded by Federal Grants" document is also included with the
Institute's inquiry report (Tab 4, page 3).
                                                          Institute President fiom the subject "Re: Scientific
                                                   randum is included in Tab 4
                                                       the Institute inquiry report located at Tab 4.
21 Tab 6, page 2.
22 Attachment 1 to Tab 6 consists solely of the single-page statement by the subject "Admission of
misconduct while being funded by Federal Grants."
23 Points 7 and 8 of the Institute policy "Allegation of Misconduct in Science." The policy is included with
the Institute inquiry report at Tab 4.
                                           OIG's Investigation

An.individua1working in the same scientific field as the subject reportedly first noticed
inconsistencies in the supplementary data and associated figures in the subject's published
paper. We contacted'that individual to confm the circumstances of the discovery, and to
help us assess the impact of the alleged falsification and fabrication of the data.

The individual examined the supplemental data in the subject's published paper to
 determine data variability in preparation for his own experiments. His examination
revealed a consistent mathematical relationship b e t e e n supposedly independent replicate
 data sets. Our own examination of the measurements given as "replicate 2" data set in
certain micromay experiments suggests that they were simple and consistent multiples of
,thecorresponding values provided in the '.'replicate 1" data set. We examined the
 supplemental data, and provide here several excerpted examples of the apparently
 fabricated data.24

For each of the examples below, column headings are those found in the original
supplementary data; the factor the subject used to obtain Rep 2 is shown in the column
titled 'Xep 1/Rep2" and is provided in bold.

Example 1: Excerpts from microarray analysis for sulfate starvation (see Tab 7, E)




Example 2: Excerpts from microarray analysis for sulfate starvation, 16 hours (see
Tab 7, I?)




24   Full examples are given in material at Tab 7.
Example 3: Microarray analysis of sulfate replenishment (see Tab 7, G)




Note for all examples given above: A recorded measurement of "0"reasonably indicates an invalid
measurement and is expected to be a random event. It is unlikely that a random invalid measurement would
recur for the same gene in a replicate experiment. Ifhowever, the replicate value were mathematically
fabricated, then the value of "0"would consequently appear in both columns, as seen here.

These examples show the consistency of the manipulations used by the subject to create
the "replicate" second data set from the first data set (for example, creating the values
listed for Rep 2 for each gene from the values of Rep 1 by dividing by 1.20000 or 1.30000
as in example 1 above).

We communicated with the subject both by phone and by email as part of our
investigation. In a phone conversation on May 28,2003,2~the subject admitted to us that
he had falsified and fabricated data as alleged. The subject indicated that he had neither
seen nor been offered the opportunity to comment on the Institute investigation report.
The subject asserted that his manipulations of the data in the supplemental data sets were
isolated instances of research misconduct, and that he alone had initiated such actions.

We followed up the phone conversation with a letter to the subject on June 18,2003 that

sets.26 In his written response to us dated July 18,2003,zPthe subject returned these
included a copy of the Institute investigation report and co ies of the supplementary data

documents to us, and included a cover sheet with the statement 'looked over report all
information is correct and true ." Additionally, Attachment 3 of the Institute's
investigation report "Falsified Data in Reference [1lYa8 is annotated by the subject as "All
true," a summary of falsified data i~Figure 5 is annotated as "correct," and a list of
falsified data in the online supplemental data to reference [I] is similarly annotated as
~ ~ c o ~ ~ e c t . ~ ~ ~ ~

The subject admitted to falsification and fabrication of images in the supplemental data set.
The document "Falsified Data in Reference [I]," annotated as correct by the subject,

25 Memorandum of Investigation documenting our phone call to the subject on May 28,2003 is attached at
Tab 8.
26
   NSF OIG's letter to the subiect is at Tab 9.



'9
     subject's annotations to Attachment 3 of the Institute investigation committee report (Tab 10, as marked).
b

    contains the subject's admission to manipulation of images: "I false colored the single
    experimental images in the supplemental data set for Figure 4 using the computer program
    Photoshop, so as to present these single replicates as replicated experiments in the
    supplemental data set." From the same document, in a description of the images that
    accompanied the microarray measurement values for nitrogen starvation-andsulfate
    starvation and other similar experiments, the subject states: "Repetition #2 falsified.
    Reversed image of left (Repetition #I)." Having manufactured a set of "replicate"
    measurements, the subject falsified the images to correspond to the fabricated numerical
    data

                                         OIG9sAssessment

    NSF's definition of research misconduct includes "fabrication, falsification, or plagiarism
    in proposing or performing research funded by NSF, reviewing research proposals
    submitted to NSF, or in reporting research results funded by NSF."~' A finding of research
    misconduct requires that (1) there be a significant departure fiom accepted practices of the
    relevant research community, that (2) the misconduct be committed intentionally, or
    knowing1 or recklessly, and that (3) the allegation be proved by a preponderance of the
    evidence.l'i

                                Departure fiom Accepted Practices

    The subject's written response to us, and his annotations in the documents he returned to
    NSF OIG, show that he fabricated numerical data, and that he also falsified the related
    image data. The subject's admission is corroborated by the information derived fiom
    another individual's initial observations, the subject's statements found in the Institute's
    inquiry and investigation reports, and our own evaluation of the data.

    A summary of the actions by the subject is as follows:

    1. Creating a bogus set of replicate measurement data in each of five microarray
           experiments of low nitrogen stress, phosphate replete, low sulfk after eight hours,
           low sulfur after sixteen hours, and s u b replete.
    2. Creating bogus color images to correspond to the fabricated replicate data sets for the
           microarray experimentti.
    3. Creating a bogus set of replicate measurement data in each of three transcription
           experiments for low nitrogen stress, phosphate replete, and sulfur replete.
    4. Creating bogus color images used in the supplemental data set that correspond to the
           fabricated replicate data sets.

    Science demands both measurement accuracy and measurement precision.32 -Accuracyis
    an assessment of how close the measurement is to the true value, and precision an
    assessment of the reproducibility of the measurement. Measurements done once have only
L


    limited value, and measurements are therefore repeated to assess reproducibility.
    Scientific standards3)require that the experiments paformed by the subject should have
    been repeated. The subject, a Ph.D. scientist, knew that replicate measurements must be
    included in the published paper to meet those scientific standards. Instead of completing
    the replicate experiments, however, the subject instead chose to fabricate sets of
    "replicate" measurements, knowing that publication of the fabricated values would give the
    appearance of a properly completed set of experiments. In so doing, he both
    acknowledged the scientific standards of scholarship that require replication, and then
    violated those same standards. His admitted actions are a clear departure from standards of
    scientific scholarship.

    The Institute investigation committee concluded, by a preponderance of the evidence, that
    the subject's actions do represent a significant departure from the accepted practices of the
    relevant research community. We independently amved at the same conclusion.

                                              Intent of the Subiect

    The subject describes his actions and motivations: "I also limited further array
    experiments and replications. I kept trying to make the arrays better with,more genes, or a
    different organization, and this was a problem."34 With respect to other experiments: "I
    had replicates and I combined averages into these spreadsheets, but some of the time points
    were lacking quality data, and this is where I made a.fatal error. I used only one replicate
    for the following time points. I want to stress that the experiments were done, but I
    knowingly chose to exclude those with questionable spots."3S Without requisite
    experimental data for several replicate data sets, the subject fabricated .thereplicate data set
    by mathematically manipulating the real data sets, as shown in the examples provided.
    -Thesubject's intent was to provide replicate data sets without repeating the experiments.

    The Institute's investigation committee concluded that the subject's actions were knowing,
    basing this conclusion on the subject's admission of actions. We reviewed the reports of
    the inquiry and investigation committees, assessed the statements made by the subject in
    our telephone conversation with him, and accepted the subject's written confirmation of
    his actions included in the inquiry and investigation reports. We similarly conclude, by a
    preponderance of the evidence, that the subject's actions.wereknowing and deliberate.

                                                 Burden ofproof

    NSF's standard of proof requires that the allegation be proved by a preponderance of the
    evidence that, .onbalance, is more likely than not to be true. Based on the documentary
    record, we conclude by a preponderance of the evidence that 1) the subject committed acts
    of falsification and fabrication, 2) that the subject's acts were a violation of the standards
    of the scientific community, and 3) that the subject's acts were knowing and deliberate.

         Sigma Xi, The Responsible Researcher: Paths and Pitfalls, Research Triangle Park, 1999.
    " The subject is his statement "Admissionof Misconduct while being funded by Federal Grants" dated 1-
    "


    24-2003. This document is at Tab 4, page 2 of Atch 2.
    '' Ibid,page 3.
We therefore conclude that the subject committed research misconduct by fabricating false
data and figures.

                                 OIG's Recommendations

In deciding what final actions are appropriate when research misconduct is found, NSF
officials should consider: (1) how serious the misconduct was; (2) the degree to which the
misconduct was knowing, intentional, or reckless; (3) whether it was an isolated event or
part of a pattern; (4) whether it had a significant impact on the research record, research
subjects, other researchers, institutions or the public welfare; and (5) other relevant
circumstance^.^^
How serious the misconduct was

Fabrication of scientific data denigrates the fundamental value of research. Fabrication can
lead to erroneous conclusions by other researchers about the significance of the research
work. Fabrication distorts experimental designs for subsequent research work, especially
by others, and can render their subsequent work meaningless. Fabrication casts into doubt
otherwise reliable results in associated research by colleagues and coworkers. S;abrication
abrogates scientific and personal trust.

We observe the pernicious effects of data fabrication in the present case. The subject
worked in a laboratory allied with others in a common research effort. An individual in an
associated collaborative laboratory, who sought to duplicate and to build upon the subject's
reported experiments, uncovered the subject's fabrication of data. Progress in this NSF-
funded collaborative effort, as in any scientific effort, depends explicitly on the validity of
the published data in completed experiments. Falsification and fabrication of data directly
undermines that assumed validity, slows research progress, and taints associated results.
The scientific work of the colleague was diverted, and his attention distracted, in this case.
The contribution of the entire Instituteresearch group must be re-evaluated by its
collaborators. Therefore, we conclude that the subject's actions were an extremely
egregious act of research misconduct.

Denree to which the misconduct was knowinp, intentional. or reckless

The subject, in his fabrication of multiple sets of "replicate" data, explicitly selected a
mathematical manipulation of real data to generate fabricated data with different numerical
values, but which retained the underlying relationships reflected in the measurements. The
subject did not make that selection nor complete such manipulations accidentally or
unintentionally. To support the fabrication of data, the subject falsified images by
projection and recoloration so that the figures matched the fabricated replicate data sets.
The subject was explicitly aware of which images must be falsified in order to achieve
consistency with the fabricated data. The unarguable intent in these actions of the subject
was to knowingly deceive.
 In an email between the subject and the individual that uncovered the fabrication, the
 subject writes: "I had to look at the evidence and evidence is that I compromised biological
 standards in order to get a complete set of data, or to make the data look better than it may
'have been. I do believe the arrays were of high quality, but the evidence . . . [provided] . . .
 is proof that I altered the data in order to look better, and achieve my goal of getting the
 manuscript in the same time as the genome                       Further, the subject writes in a
 document provided to the Institute: "I realize that I was so far into the manuscript I
performed data transformations that are inconsistent with scientific rules."38

As noted later, the subject cooperated with both the Institute inquiry and investigation and
our own. The subject's cooperation after the allegation surfaced stands in direct contrast to
his apparent rationalizations of the ethical implications of his actions in the time between
the falsified and fabricated data were collected and submitted as part of the publication,39
the time during which the manuscript was under review? the time between manuscript
acceptance and publication,41and in the three months after the falsified and fabricated data
entered the body of scientific knowledge until the misconduct was discovered, and the
subject c o h n t e d with the allegation, in January 2003. We again conclude that the
subject was well aware of the impropriety of his actions, yet committed the misconduct
anyway, and took no action to correct it until it was independently discovered.

 The subject's actions as an isolated event or as part o fa pattern

The Institute investigation report found no evidence of any other misconduct by the
subject. The Institute investigation report therefore concluded that the subject's research
misconduct was isolated to this instance. We independently arrived at the same
conclusion.

Whether the misconduct had a simificant im~acton the research record, research
subjects, other researchers, institutions or the public welfare

The publication containing the falsified and fabricated results appeared in print, with
acknowledgment of NSF support, in November 2002. Inconsistencies in the
supplementary data were discovered by January 2003, at which time an Institute inquiry
began. TheInstitute immediately notified the journal in which the paper was published of
the inconsistencies, and the collection of supplementary data that was the focus of the
initial inquiries was removed fiom the electronic version of the paper. The remainder of
the paper remained available on line and in print.




"     Tab l1,page 1.
38                    ~ the Institute's President, marked received 1/25/03, located in Tab 4, page 5 of Atch 2.
      Subject's m e m to
.39   The manuscript was submitted on June 21,2002.
 40
      The manuscript was accepted for publication on September 10,2002.
41    The manuscript was published in the print edition of the journal with a cover date of November 2002.
b

            A formal retraction of the paper was published in March 2004." The published retraction
            includes the statement that the Institute investigation report concluded with a fnding of
            misconduct against the subject. Research on the consequences of a paper's retraction has
            concluded that the publication of a retraction does not prevent the community fiom
            viewing the results and citing the original paper as if it were still valid.43 The problem is
            compounded with electronic publication of information, since any originally downloaded
            information remains ux~corrected.~~     Indeed, the often-followed practice of removal of
            electronic versions of a publication after retraction has itself been critici~ed.4~ Despite the
            retraction, therefore, the subject's fabricated data and falsified images are now part of the
            scientific literature.

            Prompt discovery of the subject's actions has minimized the immediate impact on the
            scientificprogress of the subject's colleagues and collaborators. The individual that
            discovered the fabrication concludes that the data fabricated and the images falsified by the
            subject were not central to the experimental work presented, or to the main scientific
            conclusions of the research.46 We note that during the early stages of the Institute's
            inquiry, the journal of publication chose to withdraw the supplementary data, but allowed
            the core publication to remain, emphasizing the supportive nature of the supplementary
            data. In a cogent example of the far-ranging consequences of the abrogation of trust,
            however, the Institute itself chose eventually to formally retract the fbll paper, citing the
            misconduct of the subject.

            Other relevant circumstances

            We summarizehere the subject's explanations of his actions, culled fiom seveial
            documents assembled with the Institute inquiry and investigation, and our own
            investigation!'   The circumstances cited by the subject include 1) differences in laboratory
            management style between the subject and the often-absent laboratory director, 2) the slow
            pace with which the subject's colleagues completed research work, 3) budget limitations
            fiom high costs associated with microarray experiments, 4) difficulty within the Institute
    a
            for access to instrumentationneeded for such experiments, 5) deadlines for coordinated
            manuscript submission in support of his quest for an academic faculty position, 6)
        ,   deadlines for preparation of a proposal renewal, and 7) lack of time due to supervision of
            other laboratory personnel in unrelated projects.




            data, expressed within a series of e i i l s , are retained in O ~ G .
            " The summary of the subject's statements is assembled from the document composed by the subject
            "Admission of misconduct while being funded by Federal Orants" dated 1-24-2003. This document is
            included in the Institute inquiry report.
b
    We conclude that none of these potential mitigating factors offered by the subject excuse
    his knowing falsification and fabrication of data. The subject writes "many.
    events/individuals may have swayed me in the direction of wrong doing, but in the end I
    (sic) the buck stops with me, I cannot pass that on to anyone individual, I am to blame, I
    broke the rules and I will pay the price.'"8 We emphasize that the subject provided an
    admission of his actions and cooperated with the investigation of the Institute, and our own
    investigation.

    We recommend that NSF take the following actions as a final disposition in this case:

             'Issue a letter of reprimand informing the subject that NSF has made a finding of
              research misconduct against him.49

             Debar the subject fiom participation in Federal programs for a period of two years
             from the date of an NSF finding of research misconduct.50

    We believe that circumstances of this case calls for a Group III action, specifically
    debarment. The subject's falsification and fabrication of data was egregiously deceptive,
    with a coordinated fabrication of data and falsification of the associated images by the
    subject. The subject's research misconduct had an immediate impact on the research work
    of the subject's scientific colleagues in the same area, and ultimately led to the retraction of
    a lengthy publication that acknowledged NSF as well as NIH support. Despite the
    subject's eventual admission of his actions, and his acknowledgement that those actions
    violated the standards of scientific scholarship, the subject retained, without action,
    lcnowledge that he had deliberately falsified and fabricated data through the final months of
    his postdoctoral position, through the manuscript submission and review process, and
    through his interviews for academic faculty positions. Failing discovery of his actions, he
    would have benefited from and carried on that legacy of deceit into any academic research
    position he accepted.

    The subject's employment at the Institute has been terminated. We believe that his present
    employments1is not in a research position. However, in his present job, the subject is in a
    position to advise those seeking federal research funding, and could actively participate in
    the preparation of proposals or in the conduct of federally funded research. The subject
    caused the publication of false data &d false.resultswith the cachet of NSF support and
    other federal funding. His acts of falsification and fabrication were uncovered, the paper
    was retracted, and the consequences for the subject's personal professional employment
    were severe. However, the seriousness of the subject's actions of falsification and
    fabrication requires actions in addition to a finding of research misconduct. A two-year
    debarment period would protect the federal government's interests, and would represent a
    protective measure consistent with the seriousness of the subject's research misconduct.


    48
         "Admissionof misconduct while being funded by Federal Grants" dated 1-24-2003, page 7, as marked.
    49
         A finding of research misconduct and a letter of reprimand is a Group I action (45 C.F.R §689.3(a)(l)(i)).
         Debarment of an individual is a Group Ill action (45 C.F.R. §689.3(a)(3)(iii)
    "    We believe that the subject is currently employed as a 'Pechnical Consultant
